No. 21A94 (CAPITAL CASE)
IN THE SUPREME COURT OF THE UNITED STATES
Time Shoop, Warden
Applicant
v.
August Cassano,
Respondent.
RESPONSE TO THE WARDEN’S UNOPPOSED APPLICATION TO RECALL AND
STAY THE MANDATE OF THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT PENDING RESOLUTION OF
THE WARDEN’S PETITION FOR A WRIT OF CERTIORARI
No execution date is presently scheduled.
Deborah L. Williams
Federal Public Defender, by:
Erin G. Barnhart (OH 0079681)
Counsel of Record
Adam M. Rusnak (OH 0068693)
Assistant Federal Public Defenders
Office of the Federal Public Defender for
the Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, OH 43215-3469
Telephone: (614) 469-4141
Facsimile: (614) 469-5999
Erin_Barnhart@fd.org
Adam_Rusnak@fd.org
Counsel for Respondent August Cassano

After the United State Court of Appeals for the Sixth Circuit granted Respondent August
Cassano a writ of habeas corpus based on two denials of his constitutional right to represent
himself as recognized in Faretta v. California, 422 U.S. 806 (1975), the en banc Sixth Circuit
denied the Warden’s petition for rehearing. The Sixth Circuit then denied the Warden’s motion
to stay the mandate, as well as a subsequent unopposed motion to reconsider the motion to stay.
With Cassano’s permission, the Warden filed an unopposed motion to recall and stay the
mandate with Justice Kavanaugh, who requested Cassano file this response.
Wishing to avoid burdening this Court with litigation over this matter, Cassano agreed
not to oppose the Warden’s motion solely because he faces minimal prejudice from the delay
associated with allowing this Court to dispose of the Warden’s petition for writ of certiorari in
the normal course. As the Warden correctly noted, however, “Cassano explicitly does not
concede that this matter is worthy of certiorari, and he does not agree with Petitioner’s assertions
that this Court is likely to grant certiorari and/or to reverse the judgment below.” (Applicant’s
Mot. at 2.)
Cassano extensively rebutted the Warden’s arguments that the Sixth Circuit erred in
deciding this case in his response opposing the Warden’s petition for rehearing before the en
banc Sixth Circuit, and refers the Court to that document, appended here, (see Appendix, 6th Cir.
Doc. 61), for detailed reasons why the Warden’s anticipated petition for writ of certiorari is not
likely to be granted and this Court is not likely to reverse the court of appeals. Of course, in his
Brief in Opposition, Cassano will set forth all the reasons why this Court should deny the
Warden’s petition for writ of certiorari. For purposes of this response, however, Cassano notes
that the Warden’s pending motion to recall and stay the mandate offers the same arguments as
his rehearing petition, with one notable exception.

1

Here, the Warden does not even attempt to account for the state-court language that
fatally undermines his arguments regarding Cassano’s initial written request to represent himself,
in a motion he filed in May of 1998 titled “Waiver of Counsel.” In that motion, Cassano stated
that he wanted to “control the organization and content of his defense, be able to file motions,
argue points of laws [sic], call favorable witnesses, cross-examine any adverse witnesses and be
allowed to conduct his defense in a manner considered fundamental to the fair administration of
American justice.” (R. 134-1, PageID 863.) Although the Supreme Court of Ohio initially
acknowledged this motion when reciting the facts of Cassano’s Faretta claim, it inaccurately
stated in its analysis of that claim the following:
Cassano’s initial demand to represent himself focused on hybrid
representation. Cassano’s only written motion on that point was
made in September 1998 and related solely to hybrid
representation. Cassano did not mention that he wanted to
represent himself alone until April 23, 1999, only three days before
the start of the trial.
State v. Cassano, 772 N.E.2d 81, 91 (Ohio 2002) (emphasis added). Cassano did file a “Motion
for Appointment of Co-counsel” on September 25, 1998, (R. 134-3, PageID 1300), but
Cassano’s earlier (written) May 1998 motion concerned Cassano’s right under Faretta to
“represent himself,” not hybrid representation. (R. 134-1, PageID 863.)
Whether considered an unreasonable determination of the facts in the record before it
under 28 U.S.C § 2254(d)(2) or a failure to adjudicate the claim related to his written request
altogether, the state court’s mistake means AEDPA deference does not apply to this claim, as the
Sixth Circuit correctly held. The Warden’s arguments here ignore this mistake. Below, they
hinged on a paradoxical reading of the state court’s words that would render that section of the
court’s decision redundant and unintelligible. (See Appendix, 6th Cir. Doc. 61, at pages 11–14.)
The Sixth Circuit’s de novo review was proper because there is simply no way around the fact

2

that the state court overlooked Cassano’s initial written motion when adjudicating his selfrepresentation claim.
For these reasons, as well as all of the reasons stated in his opposition to the Warden’s
rehearing petition, (see id. at pages 7–17), Cassano submits that this Court will deny the
Warden’s petition for writ of certiorari and will not reverse the Sixth Circuit’s well-reasoned
opinion. Nevertheless, he does not object to the Court granting the Warden’s pending motion to
recall and stay the mandate to allow for the orderly disposition of this case in the normal course.
Respectfully submitted,
Deborah L. Williams
Federal Public Defender
by
/s/ Erin G. Barnhart
Erin G. Barnhart (0079681)
Counsel of Record
Adam M. Rusnak (OH 0068693)
Assistant Federal Public Defenders
Office of the Federal Public Defender for
the Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, OH 43215-3469
Telephone: (614) 469-4141
Facsimile: (614) 469-5999
Erin_Barnhart@fd.org
Adam_Rusnak@fd.org
Counsel for Respondent August Cassano

September 17, 2021

3

